                                  EVALUATION




 OFFICE OF ENFORCEMENT,
 OFFICE OF NATURAL RESOURCES
 REVENUE




Report No.: CR-EV-MMS-0002-2010     January 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



                                                                               JAN 0 9 2012
Memorandum

To: 	          Greg Gould
               Director, Office ofNatural Resources Revenue

From: 	        Mary L. Kendallf(._  ().u   ~A cfl~
                                                          ~
                                                      1
               Acting Inspector General /         '

Subject: 	     Evaluation Report- Office of Enforcement, Office of Natural Resources Revenue
               Report No. CR-EV-MMS-0002-2010

        This memorandum transmits the findings of our evaluation of the Office of Enforcement
(OE), Office of Natural Resources Revenue (ONRR). Our objective was to assess the efficiency
of OE' s process for obtaining compliance with royalty laws and regulations from companies
operating on Federal and Indian lands;

        Our evaluation discloses that OE does successfully obtain companies' compliance with
laws and regulations, and that OE negotiates reasonable settlements when companies dispute the
amount of royalties owed the Government. We believe, however, that OE can obtain more timely
compliance if it promptly issues Notices of Noncompliance (NON C) and assesses civil penalties
more often. In our report, we also address procedural changes that should enhance OE ' s efforts
to collect additional revenues due the Federal Government. Our report contains seven
recommendations to improve the efficiency of OE ' s enforcement process.

        We provided OE with Notices of Potential Findings and Recommendations (NPFR)
during our review, and received and considered OE' s responses to those NPFRs in this report.
OE agreed with our findings and recommendations and initiated actions to address several of our
recommendations soon afterward, and even before receiving the NPFRs. In response to our draft
report, ONRR concurred with all seven recommendations and plans to complete corrective
actions by the fourth quarter of fiscal year 2012.

       OE is currently implementing corrective actions that include improvements to
management controls such as supervisory review of tracking reports to ensure for the timely
issuance ofNONCs, development of specialized forms to centralize the justification of civil
penalty amounts and risk assessments in civil penalty and negotiation case files, and
enhancements to their surety tracking database and procedures. ONRR will update OE' s
procedural manuals to incorporate all the improvements.

        Our evaluation results and conclusions are based on data obtained from official OE files.
Much ofOE' s performance, however, depends on the actions of other ONRR divisions and even
outside agencies. OE cases could not move forward in many instances until those divisions



                               Office of Inspector General I Washington , DC
returned information or requests for action back to OE. We draw our conclusions based on the
limited information from OE files and make recommendations that, if implemented, should
improve the communication and cooperation between other ONRR divisions and OE.

      Since ONRR’s response included information on actions taken or planned to address the
recommendations detailed in this report, target dates, and titles of the officials responsible for
implementation, a response is not required.

      Legislation, as amended, creating the Office of Inspector General requires that we inform
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and unimplemented recommendations.

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.




                                                 2

Table of Contents
Results in Brief ....................................................................................................... 1


Introduction............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2


Findings and Recommendations ............................................................................. 5

   Notices of Noncompliance and Civil Penalties................................................... 5

   Justification for Civil Penalty Amounts .............................................................. 8

   Preliminary Risk Assessment Summaries and Minimum Settlement Amounts . 9

   Settlement Amounts and Interest ...................................................................... 10

   Sureties .............................................................................................................. 11


Conclusion and Recommendations Summary ...................................................... 13

   Conclusion......................................................................................................... 13

   Recommendations Summary............................................................................. 13


Appendix 1: Scope and Methodology................................................................... 15

   Scope ................................................................................................................. 15

   Methodology ..................................................................................................... 15


Appendix 2: Bureau’s Response........................................................................... 16


Appendix 3: Status of Recommendations............................................................. 21

Results in Brief
We evaluated the efficiency of the Office of Enforcement (OE), Office of Natural
Resources Revenue (ONRR), process for obtaining compliance from lessees and
operators that violate lease terms, regulations, or Federal law during the leasing
and production of energy and mineral resources on Federal and Indian lands. We
found that, in general, OE and others involved in the enforcement process do
successfully obtain companies’ compliance with laws and regulations, and that
OE negotiates reasonable settlements when companies dispute the amount of
royalties to be collected. ONRR has an opportunity, however, to improve the
timeliness and efficiency of its compliance activities.

We found that ONRR is not always issuing Notices of Noncompliance (NONC)
in a timely manner or assessing civil penalties as established in regulations after
issuing NONCs. In addition, ONRR is not preparing risk assessment summaries
required under its policies or fully justifying and documenting the assessed civil
penalties in its case files. We also found needed improvements in protecting the
Government’s financial interests during processing and managing settlements and
appeals. We determined the Government lost approximately $586,000 in interest
during the processing of five settlement agreements.

We make seven recommendations to improve the efficiency of ONRR’s
enforcement process and obtain more timely compliance through: 1) focused
management and coordination among ONRR divisions during the NONC process,
2) strengthened procedures to ensure that NONCs are issued promptly and civil
penalties are assessed and increased when companies do not timely comply, and
3) improved guidance to fully document civil penalty assessments and negotiated
settlements and reduce the risk of lost interest or missing sureties during the
settlement and appeal process. ONRR concurred with, and will implement, our
recommendations by the fourth quarter of fiscal year (FY) 2012. See appendices 2
and 3.




                                                                                  1
Introduction
We evaluated the Office of Enforcement (OE), Office of Natural Resources
Revenue (ONRR), to determine whether OE obtained timely company
compliance with Federal laws and regulations, and properly referred potential
fraud cases to the Office of Inspector General (OIG). We found no evidence that
OE did not refer potential fraud cases. ONRR does have an opportunity to
improve the timeliness and efficiency of its compliance activities.

Objective
Although the overall effectiveness and efficiency of the enforcement process
involves many parties, our objective was to assess the efficiency of OE’s
processes for obtaining compliance from companies operating on Federal and
Indian lands.

Background
ONRR is responsible for the efficient, timely, and accurate collection and
disbursement of $9.5 billion (in 2010) in royalties and other revenues due the
Government from the leasing and production of natural energy and mineral
resources on Federal and Indian lands. OE supports ONRR’s overall mission by
securing industry compliance with ONRR regulations and orders.

The Federal Oil and Gas Royalty Management Act of 1982 1 (FOGRMA)
provides for civil penalties when a person or company: 1) fails to comply with
applicable laws or fails to take timely corrective action on noncompliance, or 2)
knowingly or willfully commits a violation specified in FOGRMA.

OE can assess civil penalties when a person or company properly served a Notice
of Noncompliance (NONC) fails to correct those violations by the deadline
established in the NONC (referred to as the cure period). Unless ONRR divisions
allow a longer period or grant an extension, a person or company is liable for a
penalty of up to $500 per violation, per day, starting 20 days after the violator
receives a NONC. OE may increase this to $5,000 per violation, per day, if the
violation goes uncorrected for more than 40 days. Knowing or willful violations
by persons or companies can have immediate penalties up to $25,000 per
violation per day, depending on the type of violation.

ONRR issues notices for two categories of violations – those that have a cure
period (referred to as “curable”) and those that carry an assessment of a civil
penalty, whether immediate or beginning after the expiration of the cure period.
NONCs apply only to curable regulatory violations such as failure to: (1) submit
reports or provide information requested for purposes other than audit, (2)
unintentional failures to provide properly requested audit information, or (3)
1
    30 U.S.C. § 1719 Civil Penalties




                                                                                    2
inadvertent failure to timely pay royalties. Violators can avoid civil penalties for
curable violations by taking the required action within 20 days (or longer as
agreed to by ONRR) of a NONC’s issue date. Violations that carry an immediate
civil penalty include such actions as the knowing or willful underpayment or
nonpayment of royalties, or false reporting.

Along with OE, program managers in two other divisions within ONRR –
Financial and Program Management and Audit and Compliance Management –
have been delegated the authority to issue NONCs. A Civil Penalty Notice is
issued if the violator does not comply with the terms of the NONC during the cure
period or if the violation carries an immediate civil penalty. Only OE can issue
Civil Penalty Notices. OE refers cases for criminal investigation to the OIG’s
Office of Investigations when it identifies potential fraud.

OE has three branches: Enforcement Operations, Alternative Dispute Resolution,
and Litigation Support.

Enforcement Operations Branch
Enforcement Operations —

     •	 works with program managers in the Financial and Program Management
        and Audit and Compliance Management divisions so that they can issue
        curable NONCs;
     •	 issues NONCs for cases it initiates;
     •	 issues NONCs for cases referred by the Bureau of Land Management
        (BLM), states, and tribes;
     •	 assesses civil penalties when companies fail to comply with a NONC;
     •	 issues Civil Penalty Notices for violations that carry immediate civil
        penalties or that are in noncompliance with NONCs; and
     •	 refers potential criminal violations to OIG’s Office of Investigations.

Alternative Dispute Resolution Branch
Alternative Dispute Resolution 2 —

     •	 gives lessees the opportunity to request settlement discussions for disputed
        royalties and civil penalties;
     •	 receives settlement proposals;
     •	 establishes negotiation teams; and
     •	 gathers pertinent information from knowledgeable parties.

2
 The Alternative Dispute Resolution Act of 1990 (5 U.S.C. § 571-583 (1994)) states that each agency shall
adopt a policy to use alternative means of dispute resolution and case management. Additionally, the Royalty
Simplification and Fairness Act of 1996 (30 U.S.C. § 1724(i)) granted the Secretary of the Interior discretion
“to compromise and settle” royalty disputes. ONRR established its alternative dispute resolution program
within OE in 1992.




                                                                                                            3
Upon completion of negotiations, a final settlement agreement and a justification
memorandum are prepared and sent to the ONRR Director for approval. When
Indian trust issues are involved, the Assistant Secretary of Indian Affairs also
receives a copy of the settlement agreement and memorandum. Once all parties
sign the settlement agreement, its terms are implemented.

Litigation Support Branch
Litigation Support —

   •	 prepares claim support for the Government’s interests in bankruptcy
      proceedings;
   •	 responds to requests for documentation relating to appeals or litigation;
   •	 refers outstanding debt, including unpaid civil penalties, to the U.S.
      Department of the Treasury for collection; and
   •	 receives and maintains surety instruments during appeals of disputed
      royalties.

Sureties ensure that the Government will receive payment, including interest,
should an appeal favor the Government. Sureties include bonds, letters of credit,
or certificates of deposit submitted by companies to cover royalties (with interest)
under appeal to ONRR. Companies may also self-bond if they can document
adequate financial status to cover the royalties and interest.

When ONRR receives surety documents, Litigation Support’s surety accountant
verifies that the surety meets standards and securely stores it. The surety
accountant is responsible for requiring companies to update their sureties annually
with additional interest.




                                                                                    4
Findings and Recommendations
Notices of Noncompliance and Civil Penalties
Although ONRR obtained compliance from companies to correct lease or
regulatory violations, it did not always issue NONCs or assess civil penalties as
authorized. ONRR resolved a majority of violations informally, with some cases
taking more than a year to obtain companies’ voluntary compliance. Even when
ONRR issued NONCs, it allowed extended periods for compliance instead of
assessing civil penalties within authorized timeframes. There are many reasons
that an individual case might take time to resolve, but we believe that OE and
other ONRR divisions could achieve more timely compliance through better
coordination and management of NONC and civil penalty processes.

We reviewed 213 cases that Enforcement Operations closed and designated as
“Compliance Achieved” from FY2007 through mid-January 2010. We
categorized the cases as closed due to informal resolution, resolved after issuance
of a NONC, and resolved after issuance of a NONC and assessment of civil
penalties.


                       Resolution of 213 Closed Cases
                 22 Cases
               Resolved with
                Civil Penalty
                Assessment
                    10%

                         55 Cases
                       Resolved After
                        Issuance of
                          NONC
                            26%                136 Cases
                                                Resolved
                                               Informally
                                                  64%




Figure 1.

Our analysis showed:

    •	 Sixty-four percent (136 cases) were informally resolved without issuing
       NONCs. These cases took from zero (i.e., same day) to 594 days to
       resolve.


                                                                                    5
   •	 Twenty-six percent (55 cases) were resolved without a civil penalty after
      ONRR issued NONCs. After issuance of the NONC, these cases took
      from 7 to 1,624 days to be resolved.
   •	 Ten percent (22 cases) were resolved after NONCs were issued and civil
      penalties were assessed totaling over $1.4 million. Recognizing that civil
      penalty actions take much longer to resolve, the time it took to close these
      cases ranged from 85 days to 2,379 days – just over 6 ½ years.

During the course of our evaluation, ONRR management acknowledged that they
could have issued more NONCs during the evaluation period. OE could not issue
NONCs in every case. ONRR management stated that in prioritizing its use of
resources, OE has traditionally focused on issuing NONCs and civil penalties for
serious violations or repeat offenders. For minor or first violations, OE staff
attempt informal resolution.

OE and its Enforcement Operations Branch do not have complete control over the
NONC process. Program managers in Financial and Program Management and
the Audit and Compliance Management divisions have delegated authority to
issue NONCs. These NONCs are coordinated through Enforcement Operations to
ensure legal sufficiency. The issuing division is responsible for routinely
monitoring compliance and initiating additional enforcement actions when
necessary. We found that Enforcement Operations has complete control over only
a small percentage of cases.

Figure 2 presents the sources for the 213 violations resolved by Enforcement
Operations included in our review; it shows that only 10 percent of all cases
originated at Enforcement Operations. Other sources from which cases originated
include BLM, states, and Indian tribes.




                                                                                 6
                                 Sources of 213 Closed Cases
                20 Cases

            Referred by Audit

             and Compliance
               Management
                  10%


                                                    145 Cases
                                                   Referred by
                                                   Financial and
       22 Cases                                      Program
     Originated by                                 Management
                                    26 Cases
     Enforcement                                       68%
                                   Referred by
      Operations                  Other Agencies
         10%                           12%




Figure 2.

As Figure 2 illustrates, the majority of cases originated from Financial and
Program Management. We found several cases where the Financial Management
Office within Financial and Program Management did not issue NONCs even
after Enforcement Operations reviewed and approved their issuance. Some of
these cases exceeded 180 days without a NONC.

After issuing NONCs, the delegated divisions are supposed to return continuing
noncompliance cases to Enforcement Operations for civil penalty actions. We
found that Enforcement Operations could not assess civil penalties in most of the
cases where the cure periods had lapsed for NONCs issued by Financial and
Program Management because the cases were never returned to Enforcement
Operations. We noted that some companies received extensions from Financial
and Program Management, but still did not resolve matters within the granted
extension.

We believe that Enforcement Operations could have issued more NONCs and
assessed more civil penalties for cases it originated. Only 22 of the 213 cases we
reviewed were initiated by Enforcement Operations and therefore entirely under
its control. Enforcement Operations only issued a NONC in one case, with an
extension, yet it did not assess civil penalties even though resolution occurred 127
days past the NONC’s issue date. Enforcement Operations did not issue NONCs
for 20 cases that took longer than 180 days to resolve. We did note that
Enforcement Operations delayed the NONC decision process for 11 of these 20
cases because it referred the cases to the OIG for possible criminal investigation.




                                                                                    7
In response to our Notice of Potential Findings and Recommendations, ONRR
management stated that some delays in civil penalty assessments occur because of
referrals to the U.S. Department of the Treasury, attempts to resolve NONCs
through settlement, NONC recipients’ requests for a hearing on the record, and
referrals to the OIG. In addition, ONRR responded that the delay in issuing a civil
penalty assessment does not result in less civil penalties collected. If the recipient
of a NONC does not comply with the NONC, civil penalties are assessed
beginning with the day after the recipient received the NONC until the date the
company complies or the case is referred to Treasury.

Given the authorities to assess civil penalties and to increase penalties over time,
we believe prompt enforcement action could have resulted in more timely
compliance.

 Recommendations

     1. Improve procedures and management controls to ensure that
        operating divisions with delegated NONC authority issue NONCs
        timely and return NONCs promptly back to OE for civil penalty
        assessment once the cure period has expired.

     2. Strengthen procedures to ensure that NONCs are issued promptly,
        and that civil penalties are assessed and increased when companies do
        not comply timely.


Justification for Civil Penalty Amounts
Enforcement Operations’ civil penalty case files did not always contain enough
documentation for us to determine whether assessments were properly calculated
and consistently applied. Enforcement Operations normally calculates civil
penalties based on pre-set standards for each type of violation after considering
factors such as the size of the company and if the company is a repeat offender.
While Enforcement Operations rarely deviates from standard civil penalty
amounts, its procedures do not contain specific guidance regarding the need for
documentation to support and justify civil penalty assessments.

We reviewed 21 closed cases where Enforcement Operations assessed civil
penalties and found no documents in the files supporting information used to
determine the penalty amounts, such as the size of the company or whether or not
they were repeat offenders. For example, in one case Enforcement Operations
calculated the penalty by number of leases and, in another case, by number of
wells. Both cases were violations for not reporting production and did not address
the size of the company. In addition, Enforcement Operations based the civil
penalty assessment in one of the cases on the number of wells, but then changed it
to leases because the company only had three employees. These examples



                                                                                       8
indicate that assessments may vary for the same or similar violations without
documented justification for any variance.

In response to our Notice of Potential Findings and Recommendations, ONRR
recognized that the justifications are not always clear. To ensure that justifications
are clear and readily accessible in the case files, ONRR plans to prepare a special
form to document the bases for any standard rate departures, and to verify the
justification through their peer review and the civil penalty signature processes.

 Recommendation

      3. Fully document the justification for civil penalty amounts.


Preliminary Risk Assessment Summaries and
Minimum Settlement Amounts
The Alternate Dispute Resolution Branch did not prepare preliminary risk
assessment summaries as required by ONRR’s Negotiated Agreement Manual. 3
Risk assessment summaries are narratives addressing various factors that affect
the strength of the Government’s position in negotiations. If updated as needed,
the risk assessment summary indicates the Government’s position throughout
negotiations, thereby guiding the negotiation team.

The Manual states: “The level of risk dictates the degree to which the Department
of the Interior is willing to negotiate a settlement of any particular issue.” The
Manual states the criteria used to assess risk throughout the resolution process.

The Chief, Office of Enforcement stated that the negotiation teams understand the
risks in each case and that the information is available in the negotiation file.
Further, she stated that it is unnecessary and too time consuming to prepare a
formal summary. A risk assessment summary, however, can better inform
management about the relative strength of the Government’s negotiating position.

In addition, the Manual does not require the establishment of a minimum
settlement amount prior to negotiations. We believe establishing a preliminary
minimum settlement amount could help guide and justify the Government or
tribes’ negotiating position. It would also inform management of the minimum
amount that the Government expects to collect, thereby setting a benchmark for
comparison against final settlement amounts.

In response to our Notice of Potential Findings and Recommendations, ONRR
said they plan on removing the requirement for the preliminary risk assessment

3
  Negotiated Agreement Manual, Release I, Section 4.2.2 entitled “Prepare Preliminary Risk Assessment”
January 1, 2007.




                                                                                                         9
summary from the Manual, but require consolidation of risk information in one
place in the case file. We believe that ONRR should continue to require
preparation and documentation of the preliminary risk assessment summary, with
a minimum settlement amount, in the case files. The summary is an efficiency
tool that quickly summarizes the case, with the applicable risks, for the benefit of
others not familiar with the case such as case file workers who may take over the
case or ONRR supervisors.

    Recommendations

        4. Prepare and document a preliminary risk assessment summary, as
           required by the Negotiated Agreement Manual, prior to entering into
           negotiations with companies.

        5. Include instructions in the Negotiated Agreement Manual that a
           preliminary minimum settlement amount should be determined, with
           justification for that amount, and added to the preliminary risk
           assessment summary prior to negotiating a settlement amount.


Settlement Amounts and Interest
The Alternate Dispute Resolution Branch did not account for interest accruals
between the Agreement in Principle settlement date and the final settlement date
as required by law. FOGRMA § 1721 (a) states: “In the case of oil and gas leases
where royalty payments are not received by the Secretary on the date that such
payments are due, or are less than the amount due, the Secretary shall charge
interest on such late payments or underpayments. . . .” 4

In five settlement cases out of the nine we reviewed, we noted significant delays
where the Government cumulatively lost approximately $586,000 in interest
accruals pending completion of the final settlement agreements. (See Figure 3.)




4
    30 U.S.C. § 1721 (a) Charge on late royalty payment or royalty payment deficiency




                                                                                        10
                          Sample Settlement Cases

              Agreement In     Agreement      Settlement    Days of    Amount
  Case        Principal        In Principal   Agreement     Lost       of Lost
              Amount           Date           Date          Interest   Interest
  Case 1      $150,000         10/3/06        2/27/08       512        $17,540
  Case 2      $1,344,822       1/7/09         7/9/09        195        $30,522
  Case 3      $179,000         3/14/07        9/25/07       195        $3,845
  Case 4      $12,259,539      10/27/08       7/9/09        255        $257,352
  Case 5      $3,500,000       12/19/06       11/30/07      346        $276,544
  Total
  Lost                                                                 $585,803
  Interest

Figure 3.

OE’s program manager stated that prepayments of the Agreement in Principle
amount were now required for cases involving large-dollar Federal cases and
Native Americans. In one recent case, a company made a $25 million prepayment
at OE’s direction. The company thereby avoided additional accrued interest
charges and the Government received its settlement amount before completion of
the final settlement agreement. The manager, however, noted there was no written
policy for this new prepayment requirement.

 Recommendation

     6. Develop and implement written policies and procedures to: 1) instruct
        companies to prepay the Agreement in Principle amount by a date
        certain to avoid lost interest while the final settlement agreement is
        being processed and executed, and 2) require companies to make
        additional interest payments should they not make the full prepayment
        by the specified date.


Sureties
Litigation Support has not always obtained sureties or updated sureties from
companies appealing disputed royalties. Companies are required to increase their
sureties annually to maintain 1 year’s interest in advance.

From a listing of 188 active appeals, OE’s surety accountant identified 102
appeals requiring sureties. Twenty-eight percent of these appeals did not have the
required sureties.

We reviewed 33 sureties maintained by the surety accountant and found that 18
(55 percent) were not current, needing either to be updated with increased interest

                                                                                  11
or to be cancelled and returned to the owners. Ten of the 18 sureties were overdue
for renewal. The surety accountant should have returned the remaining eight
sureties to the companies since the associated appeals were settled.

These problems occurred because ONRR offices managing appeals did not notify
OE when appeals were filed or when sureties were due. In addition, the surety
accountant did not have a tracking system to identify when sureties were required,
received, or due for updating. The accountant could only review the outstanding
appeals, compare these to the list of sureties that included self-bonding
companies, and then contact the responsible office to ask if a surety was still
required. Without a tracking system, OE could only identify the need for a surety
update by reviewing every surety file. This approach was time consuming, and
resulted in the lapses we identified.

By November 2010, the surety accountant created a spreadsheet to sort surety
information and track renewal dates. In addition, the accountant created a
spreadsheet to track outstanding appeals to determine whether a surety is required
for each appeal. ONRR agreed with our findings and recommendations in the
Notice of Potential Findings and Recommendations. OE responded that it has
implemented a procedure requiring the surety accountant to access the appeals
database at the beginning of each month to check for new appeals that may
require a surety.

 Recommendation

    7. Continue to improve the tracking system for sureties so that the
       surety accountant can easily identify that all sureties are received, and
       all updates are obtained timely.




                                                                                   12
Conclusion and Recommendations
Summary
Conclusion
ONRR gains compliance from companies that violate Federal laws or regulations,
but cannot always do so in a timely manner because of its reliance on other
ONRR divisions. ONRR can obtain more timely compliance with focused
management and coordination among ONRR divisions during the NONC process.
ONRR can also be more effective with strengthened procedures to ensure that
NONCs are issued promptly, civil penalties are assessed and increased when
companies do not comply timely, and the risk of lost interest or missing sureties is
reduced during the settlement and appeal process. Should ONRR accept and
implement our recommendations, we believe it would: 1) gain more timely
compliance, 2) more effectively manage the settlement process, and 3) better
protect Government interests during the settlement and appeal process.

ONRR responded to the findings and recommendations in our draft report on
November 29, 2011. ONRR concurred with all seven recommendations and plans
to complete corrective actions by the fourth quarter of FY2012. The responsible
official is the Director of ONRR.

Recommendations Summary
   1.	 Improve procedures and management controls to ensure that operating
       divisions with delegated NONC authority issue NONCs timely and return
       NONCs promptly back to OE for civil penalty assessment once the cure
       period has expired.
   2.	 Strengthen procedures to ensure that NONCs are issued promptly, and that
       civil penalties are assessed and increased when companies do not comply
       timely.
   3.	 Fully document the justification for civil penalty amounts.
   4.	 Prepare and document a preliminary risk assessment summary, as required
       by the Negotiated Agreement Manual, prior to entering into negotiations
       with companies.
   5.	 Include instructions in the Negotiated Agreement Manual that a
       preliminary minimum settlement amount should be determined, with
       justification for that amount, and added to the preliminary risk assessment
       summary prior to negotiating a settlement amount.
   6.	 Develop and implement written policies and procedures to: 1) instruct
       companies to prepay the Agreement in Principle amount by a date certain
       to avoid lost interest while the final settlement agreement is being
       processed and executed, and 2) require companies to make additional
       interest payments should they not make the full prepayment by the
       specified date.



                                                                                 13
7.	 Continue to improve the tracking system for sureties so that the surety
    accountant can easily identify that all sureties are received, and all updates
    are obtained timely.




                                                                               14
Appendix 1: Scope and Methodology
Scope
Our scope included cases closed by the Office of Enforcement (OE), Office of
Natural Resources Revenue, for the period from FY2007 through January 2010.

Methodology
We conducted this evaluation in accordance with “Quality Standards for
Inspections” issued by the Council of Inspectors General on Integrity and
Efficiency. We believe that the work we performed provides a reasonable basis
for our conclusions and recommendations.

We performed all of our work in OE’s Lakewood, CO office.

We reviewed OE’s compliance files, including civil penalties. We also reviewed
case files for negotiated settlements.

We interviewed officials from OE Enforcement Operations, Alternative Dispute
Resolution, and Litigation Support branches. We obtained and reviewed
applicable Federal laws and regulations, and OE procedures.

Limitation. Our work focused primarily on processes within, and data from OE.
Much of OE’s performance depends on the actions of other ONRR divisions,
outside agencies (including the Bureau of Land Management, states, and Indian
tribes), and regulated industry. We did not examine processes in other divisions
and agencies, or collect data from industry other than what was already included
in OE official records.




                                                                                15
Appendix 2: Bureau’s Response
The Office of Natural Resources Revenue’s response to the draft report follows
on page 17.




                                                                                 16
               United States Department of the Interior
                       OFFICE OF NATURAL RESOURCES REVENUE 

                                      Washington, DC 20240 





                                          NOV Z 9 2011

Memorandum

To:      Acting Inspector General

From:    Gregory J. Gould 

         Director 


Subject: Response to Draft Evaluation Report Office ofEnforcement, Office ofNatural
         Resources Revenue (CR-EV -MMS-0002-20 10)

Thank you for the opportunity to review the Office of Inspector General's (0 IG) draft evaluation
report (Report) on the Office of Enforcement, Office of Natural Resources Revenue (ONRR).
We concur with the seven recommendations contained in the Report. Thank you also for noting
in the Report that ONRR successfully obtains companies' compliance with laws and regulations
and negotiates reasonable settlements when companies dispute the amount of royalties owed the
Government. We are already addressing many of the issues highlighted in the Report as part of
ongoing initiatives to improve the efficiency of ONRR's enforcement process.

The attached document provides ONRR's response to each recommendation contained in the
Report and identifies planned corrective actions, target dates, and the responsible official.

We appreciate the OIG's insight and recommendations to improve ONRR's processes for
obtaining compliance with royalty laws and regulations from companies operating on Federal
and Indian lands. If you have any questions about this response, please contact
Gwenna Zacchini, ONRR Audit Liaison, at (303) 231-3513.

Attachment




                                                                                                17
                                                                                    Attachment

Office of Inspector General Inspection Draft Evaluation Report: Office ofEnforcement,
Office ofNatural Resources Revenue (Report No. CR-EV-MMS-0002-2010)

Recommendation 1: Improve procedures and management controls to ensure that operating
divisions with delegated NONC authority issue NONCs timely and return NONCs promptly back
to OE for civil penalty assessment once the cure period has expired.

Response: Concur.
The Office of Natural Resources Revenue (ONRR) currently has management controls and
procedures in place to ensure that operating divisions with delegated Notice of Noncompliance
(NON C) authority use correct methods to issue and process NONCs timely. For example, if an
operator does not comply within 45 days with an Order to Report (OTR) issued by ONRR's
Production Reporting and Verification (PRV) organization, and there are no special
circumstances, PRV sends an NONC to the operator and notifies the Office of Enforcement (OE)
that the NONC has been issued. The NONC gives the operator 20 days to comply. If the
operator does not comply with the NONC, PRV forwards it to OE for civil penalty assessment.
PRV also has a tracking system in place to track the issuance of OTRs and NONCs.

Additionally, after PRV notifies OE that it has issued an NONC, OE tracks when the NONC 20­
day cure period has expired. Within approximately two weeks of the expiration of the 20 days,
OE requests that PRV provide a statement on the extent of compliance with the NONC. If
compliance was adequate, OE closes the case. If not, OE begins its investigation of the facts,
and, if appropriate, computes and issues a civil penalty.

ONRR will take the following actions to further improve its existing management controls and
procedures:

   • 	 PRV will run a report from the tracking system on the 15th day of each month. The
       responsible PRV supervisor will review the report to ensure NONCs are issued timely for
       OTRs that are past due.

   • 	 OE will update the OMB Circular A-123, Management's Responsibility for Internal Control
       (A-123) Enforcement Operations Processes to reflect these cross-division processes.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 2: Strengthen procedures to ensure that NONCs are issued promptly, and that
civil penalties are assessed and increased when companies do not comply timely.

Response: Concur.
As discussed above, PRV currently has a system in place to track the issuance of the OTRs and
NONCs and ensure compliance with the 45-day and 20-day timeframes as described in our
response to recommendation I. We will continue to enforce the timely issuance of OTRs and
NONCs by implementing the review of the tracking system report described in our response to
recommendation 1. Also, as discussed above, OE has a system in place to track when NONCs



                                                                                                 1

                                                                                                 18
                                                                                       Attachment


are issued and whether companies have complied to ensure that civil penalties are assessed and
increased as necessary. Additionally, OE will continue to timely assess and increase civil
penalties by implementing the A-123 Enforcement Operations processes as described in our
response to recommendation 1.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 3: Fully document the justification for civil penalty amounts.

Response: Concur.
While ONRR believes recent cases resulting in civil penalties contain such justifications, the
justification elements (violation type, company size, selected penalty rate, and justifications for
departure) are located throughout the case file on the dates those elements were developed rather
than contained in one document. Accordingly, OE will develop a special form to document the
justification for civil penalty amounts in one location within case folders.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 4: Prepare and document a preliminary risk assessment summary, as
required by the Negotiated Agreement Manual, prior to entering into negotiations with
companies.

Response: Concur.
The OE will develop a form called the "Risk Assessment Summary" that, at a minimum, will
contain fields for 1) the date OE prepares the summary, 2) a summary of the case, 3) a
description of the applicable risks, and 4) a minimum settlement amount with justification. OE
will complete the form prior to entering into negotiations and retain the form in the case file.

Additionally, OE will amend the Negotiated Agreement Manual to describe the form and the
new procedures for completing it.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 5: Include instructions in the Negotiated Agreement Manual that a
preliminary minimum settlement amount should be determined, with justification for that
amount, and added to the preliminary risk assessment summary prior to negotiating a settlement
amount.

Response: Concur.
As addressed in our response to recommendation 4, ONRR will develop a "Risk Assessment
Summary" prior to negotiating a settlement amount. OE will use this form to document the
preliminary minimum settlement amount and update the minimum settlement amount as
appropriate.



                                                                                                   2

                                                                                                   19
                                                                                        Attachment



Additionally, OE will amend the Negotiated Agreement Manual to correctly describe the form
and the new procedures for completing it.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 6: Develop and implement written policies and procedures to: 1) instruct
companies to prepay the Agreement in Principle amount by a date certain to avoid lost interest
while the final settlement agreement is being processed and executed, and 2) require companies
to make additional interest payments should they not make the full prepayment by the specified
date.

Response: Concur.
The ONRR has policies and procedures in place that require companies to prepay the Agreement
in Principle amount by a date certain while the final settlement agreement is being processed and
executed, and to pay interest on the Agreement in Principle if they do not. OE will review these
policies and procedures to ensure that they are comprehensive and integrate them into the
Negotiated Agreements Manual.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR

Recommendation 7: Continue to improve the tracking system for sureties so that the surety
accountant can easily identify that all sureties are received, and all updates are obtained timely.

Response: Concur.
The ONRR has enhanced its process for tracking of sureties by updating the A-123 Surety
Process and developing a process for the ONRR Surety Accountant to timely refer cases when a
lessee fails to post a bond to Enforcement Operations for issuance of an NONC. Additionally,
OE will improve the Surety Database to better monitor active surety cases. These improvements
will serve as a strong framework for the ONRR Surety accountant to ensure receipt of all sureties
and timely updates.

Target Date: Fourth Quarter FY 2012
Responsible Official: Gregory J. Gould, Director, ONRR




                                                                                                      3

                                                                                                  20
Appendix 3: Status of
Recommendations
In response to our draft report, ONRR concurred with all seven of our
recommendations and agreed to implement them. ONRR provided corrective
action plans and an action official for each recommendation (See Appendix 2).
Therefore, we consider all seven recommendations resolved but not implemented.

 Recommendations                     Status           Action Required

 1, 2, 3, 4, 5, 6, and 7    Resolved, not             The recommendations
                            implemented               will be referred to the
                                                      Assistant Secretary
                                                      Policy, Management and
                                                      Budget for tracking of
                                                      implementation.




                                                                            21
                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
